IN THE
SUPREME COURT OF THE UNITED STATES
No. 20-1735
ANGEL MARTINEZ ORTIZ-DIAZ, ET AL.,
Petitioners,
v.
UNITED STATES, ET AL.
Respondents.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the First Circuit
BRIEF OF THE SENATE OF
PUERTO RICO AS AMICUS CURIE
IN SUPPORT OF PETITIONERS

EDWIN QUNONES
COUNSEL OF RECORD
QUNONES, ARBONA & CANDELARIO
Chubb Plaza, Suite 701-A
San Juan, P.R. 00922
(787) 620-6776
equinones@qaclaw.com

ANIBAL ACEVEDO VILA
COUNSEL FOR AMICUS CURIE
LAW OFFICE OF ACEVEDO-VILA
894 MuRoz RIVERA AVE, SUITE 202
San Juan, P.R. 00927
(787) 200-0676
acevedovilal@gmail.com

IN THE
SUPREME COURT OF THE UNITED STATES

No. 20-1735

ANGEL MARTINEZ ORTIZ-DIAZ, ET AL.,
Petitioners,
v.
UNITED STATES, ET AL.
Respondents.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the First Circuit

BRIEF OF THE SENATE OF
PUERTO RICO AS AMICUS CURIE
IN SUPPORT OF PETITIONERS

EDWIN QUIRONES
COUNSEL OF RECORD
QUMONES, ARBONA & CANDELARIO
Chubb Plaza, Suite 701-A
San Juan, P.R. 00922
(787) 620-6776
equinones@qaclaw.com

ANIBAL ACEVEDO VILA
COUNSEL FOR AMICUS CURIE
LAW OFFICE OF ACEVEDO-VILA
894 Mu oz RIVERA AVE, SUITE 202
San Juan, P.R. 00927
(787) 200-0676
acevedovilal@gmail.com

i.

QUESTION PRESENTED

This amicus brief will address the following question:
Whether Congress has power under the Commerce Clause to criminalize cockfighting
on the islands of Puerto Rico.

(Rest of page intentionally left blank.)

2

i.

QUESTION PRESENTED

This am icus brief will address the following question:
Whether Congress has power under the Commerce Clause to criminalize cockfighting
on the islands of Puerto Rico.

(Rest of page intentionally left blank.)

2

ii.

TABLE OF CONTENTS

QUESTION PRESENTED
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii
iii

STATEMENT OF INTEREST OF AMICUS CURIAE

6

STATEMENT OF THE CASE AND SUMMARY OF THE ARGUMENT

7

ARGUMENT

8

1. SECTION 12616 OF THE AIA OF 2018 SURPASSES THE LIMITS OF
CONGRESSIONAL AUTHORITY THROUGH THE COMMERCE
CLAUSE
8
II. PUERTO RICO'S LOCAL LAWS ARE, LIKE STATES' LAWS,
SOVEREING OVER MATTERS NOT REGULATED BY THE FEDERAL
CONSTITUTION
12
CONCLUSION

17

(Rest of page intentionally left blank.)

3

ii.

QUESTION PRESENTED

TABLE OF CONTENTS

i

TABLE OF CONTENTS

ii

TABLE OF AUTHORITIES

iii

STATEMENT OF INTEREST OF AMICUS CURIAE

6

STATEMENT OF THE CASE AND SUMMARY OF THE ARGUMENT

7

ARGUMENT

8

SECTION 12616 OF THE AIA OF 2018 SURPASSES THE LIMITS OF
CONGRESSIONAL AUTHORITY THROUGH THE COMMERCE
CLAUSE
8
PUERTO RICO'S LOCAL LAWS ARE, LIKE STATES' LAWS,
SOVEREING OVER MATTERS NOT REGULATED BY THE FEDERAL
CONSTITUTION
12
CONCLUSION

17

(Rest of page intentionally left blank.)

3

iii. TABLE OF AUTHORITIES
Cases:
United States v. Lopez, 514 U.S. 549, 552 (1995).

8

Gibbons v. Ogden, 9 Wheat. 1, 189-190 (1824)

8

Gonzalez v. Raich, 545 U.S. 1 (2005).

9, 6

Wickard v. Filburn, 317 U.S. 111, 125 (1942)...
Stainback v. Mo Hock Ke Lok Po,
(1949)..
Rodriguez v. Popular Democratic Party,
(1982)..
Puerto Rico v. Sanchez Valle,
(2016)...

9
336 U.S. 368
13
457 U.S. 1, 8
13

136 S.Ct. 1863, 1875
13

Financial Oversight and Management Bd. For Puerto Rico v.' Aurelius Investment,
LLC,. Sotomayor, J, concurring, 140 S. Ct. 1649
14
Calero-Toledo, 416 U. S., at 672
Mora y. Mejias, 206 F. 2d 377, 387 (CA1 1953)

14
14

Examining Bd. of Engineers, Architects and Surveyors v. Flores de Otero, 426 U.
S. 572, 597 (1976).
15
Constitutional Provisions:
U.S. Const., Art. I, §8, cl. 3

8

48 U.S.C. § 2194(m)(1)...

13

48 U.S.C. § 2121(b) (2)...

14

Statutes and Rules:
"Puerto Rico Gamecocks of the New Millenium Act", Act No. 98 of July 31, 2007, 15
Laws of P.R. Ann. §301 et seq
7, 16
Section 12616 of the Agriculture Improvement Act of 2018, Pub. L. No. 115-334,
§12616, 132 Stat. 4490, 5015-16 (2018)...
7, 9, 11, 14

4

iii.

TABLE OF AUTHORITIES

Cases:
United States v. Lopez, 514 U.S. 549, 552 (1995).

8

Gibbons v. Ogden, 9 Wheat. 1, 189-190 (1824).

8

Gonzalez v. Raich, 545 U.S. 1 (2005)...

9. 6
9

Wickard v. Filburn 317 U.S. 111, 125 (1942).
Stainhack v. Mo Hock Ke Lok Po.
(1949)...
Rodriguez v. Popular Democratic Party,
(1982)...
Puerto Rico v. Sanchez Valle,
(2016)...

336 U.S. 368
13
457

U.S.

I,

8
13

136 S.Ct. 1863, 1875
13

Financial Oversight and Management Bd. For Puerto Rico v. Aurelius Investment,
LLC; Sotomayor, J, concurring, 140 S. Ct. 1649
14
Calero-Toledo, 416 U. S., at 672
Mora v. Mejias, 206 F. 2d 377, 387 (CA1 1953)...

14
14

Examining Bd. of Engineers, Architects and Surveyors v. Flores de Otero, 426 U.
S. 572, 597 (1976)...
15

Constitutional Provisions:
U.S. Const., Art. 1, §8, cl 3

8

48 U.S.C. § 2194(m)(1)

13

48 U.S.C. § 2121(b) (2).

14

Statutes and Rules:
"Puerto Rico Gamecocks of the New Millenium Act", Act No. 98 of July 31, 2007, 15
Laws of P.R. Ann. §301 et seq
7. 16
Section 12616 of the Agriculture Improvement Act of 2018, Pub. L. No. 115-334,
§12616, 132 Stat. 4490, 5015-16 (2018)
7 9 11, 14

4

Animal Welfare Act Amendments of 1976, Pub. L. No. 94-279, §17, 90 Stat. 417,
421-22 (1976) (codified as 7 U.S.C. §2156(a)).
10, 11
Pub. L. No. 81-600, 64 Stat. 319 (1950)

12

Proclamation: Establishing the Commonwealth of Puerto Rico, P.R. Laws Ann. Hist.
(Hist. L.P.R.A.) § 10
12
Pub. L. No. 114-187, the Puerto Rico Oversight, Management, and Economic
Stability Act (PROMESA), 48 U.S.C. § 2101 et seq

13

The Puerto Rico Oversight, Management, and Economic Stability Act (PROMESA),
48 USCS § 2106
16
Other Authorities:

James
ed. 1961)

Madison,

The

Federalist,

No.

45

(C.

Rossiter
8

(Rest of page intentionally left blank.)

5

Animal Welfare Act Amendments of 1976, Pub. L. No. 94-279, §17, 90 Stat. 417,
421-22 (1976) (codified as 7 U.S.C. §2156(a))...
10, 11
Pub. L. No. 81-600, 64 Stat. 319 (1950)...

12

Proclamation: Establishing the Commonwealth of Puerto Rico, P.R. Laws Ann. Hist.
(Hist. L.P.R.A.) § 10
12
Pub. L. No. 114-187, the Puerto Rico Oversight, Management, and Economic
Stability Act (PROMESA), 48 U.S.C. § 2101 et seq

13

The Puerto Rico Oversight, Management, and Economic Stability Act (PROMESA),
48 USCS § 2106
16
Other Authorities:

James
ed. 1961)

Madison,

The

Federalist,

No.

45

(C.

Rossiter
8

(Rest of page intentionally left blank.)

5

INTEREST OF AMICI CURIAE'
Amici curiae are the Senate of the Commonwealth of Puerto Rico, whose
Members are elected officials pursuant to the mandates of the Commonwealth's
constitution, and its President, the Honorable Jose Luis Dalmau-Santiago, who has
the constitutional and regulatory authority to represent said legislative body on any
judicial proceedings. The purpose of this brief is twofold. First, to reiterate the limits
of Congressional action pursuant to the Commerce Clause of the Constitution of the
United States in prohibiting matters that are local, domestic and that occur on a
purely intrastate manner in accordance to State, Territorial or Commonwealth of
Puerto Rico laws. In addition, this briefs purpose is to affirm the legitimacy and
authority of the Senate and the Legislative Assembly of Puerto Rico to legislate over
intrastate, local, and internal affairs in Puerto Rico within the authority recognized
by the terms of the current legal, juridical, and political relationship between Puerto
Rico and the federal government of the United States.
Amici, thus, have a substantial interest in the proper resolution of the question
presented. The scope of authority of the Legislative Assembly of Puerto Rico; the
Commonwealth's internal authority over matters not regulated by the Constitution
of the United States; and the limits of Congressional action over Puerto Rico's local
law by way of the Commerce Clause of the Constitution are at the core of the
controversy presented in this case.
(Rest of page intentionally left blank.)
l Both the petitioners and the respondent have provided— via email—the express written consent to
the foregoing filing. Amicus hereby further certifies, as per this Honorable Court's Rule 37.6 no party
or counsel for a party has authored any part of the foregoing brief nor has any of the parties and/or
their attor- neys made a monetary contribution to fund the filing of this brief. No person other than the
amicus or his counsel have made a mon- etary contribution to its preparation or submission.
6

INTEREST OF AMICI CURIAE'
Amici curiae are the Senate of the Commonwealth of Puerto Rico, whose
Members are elected officials pursuant to the mandates of the Commonwealth's
constitution, and its President, the Honorable Jose Luis Dalmau-Santiago. who has
the constitutional and regulatory authority to represent said legislative body on any
judicial proceedings. The purpose of this brief is twofold. First, to reiterate the limits
of Congressional action pursuant to the Commerce Clause of the Constitution of the
United States in prohibiting matters that are local, domestic and that occur on a
purely intrastate manner in accordance to State, Territorial or Commonwealth of
Puerto Rico laws. In addition, this briefs purpose is to affirm the legitimacy and
authority of the Senate and the Legislative Assembly of Puerto Rico to legislate over
intrastate, local, and internal affairs in Puerto Rico within the authority recognized
by the terms of the current legal, _juridical. and political relationship between Puerto
Rico and the federal government of the United States.
Amici, thus, have a substantial interest in the proper resolution of the question
presented. The scope of authority of the Legislative Assembly of Puerto Rico; the
Commonwealth's internal authority over matters not regulated by the Constitution
of the United States; and the limits of Congressional action over Puerto Rico's local
law by way of the Commerce Clause of the Constitution are at the core of the
controversy presented in this case.
(Rest of page intentionally left blank.)
I Both the petitioners and the respondent have provided— via email—the express written consent to
the foregoing filing. Arnicus hereby further certifies, as per this Honorable Court's Rule 37.6 no party
or counsel for a party has authored any part of the foregoing brief nor has any of the parties and/or
their attor- neys made a monetary contribution to fund the filing of this brief. No person other than the
amicus or his counsel have made a mon- etary contribution to its preparation or submission.

6

STATEMENT OF THE CASE AND SUMMARY OF THE ARGUMENT
Cockfighting is a cultural practice and tradition that predates the arrival of
the United States, and its Constitution, to the islands of Puerto Rico on July 25,
1898.Through its local laws, Puerto Rico has strictly and increasingly regulated this
practice and tradition, which continues strong to this day. Currently, cockfighting in
Puerto Rico is comprehensively overseen by the "Puerto Rico Gamecocks of the New
Millennium Act", Act No. 98 ofJuly 31, 2007, 15 Laws ofP.R. Ann. §301 et seq.
The Commerce Clause of the Constitution of the United States has the clear, specific,
and sole purpose of regulating the commerce between the States, including the
Territories and the Commonwealth of Puerto Rico. However, it is not a carte blanche
to permit Congress to impose its policies or views on strictly intrastate practices,
dutifully regulated by lawfully elected local authorities, which do not affect in any
substantial way the interstate commerce within the United States. That is precisely
what Section 12616 of the Agriculture Improvement Act of 2018, Pub. L. No. 115-334,
§12616, 132 Stat. 4490, 5015-16 (2018), tries to unconstitutionally accomplish.
As it effectively prohibits all cockfighting activities within the Commonwealth of
Puerto Rico, Section 12616 usurps Puerto Rico's authority to regulate and authorize
a purely intrastate activity within its legitimate boundaries. That is an overbroad
exercise of the Congressional authority established and recognized through the
Commerce Clause.
Furthermore, the imposition of Section 12616 on Puerto Rico's intrastate
practice and tradition of cockfighting goes against the local and internal self-

7

STATEMENT OF THE CASE AND SUMMARY OF THE ARGUMENT
Cockfighting is a cultural practice and tradition that predates the arrival of
the United States, and its Constitution, to the islands of Puerto Rico on July 25,
1898.Through its local laws. Puerto Rico has strictly and increasingly regulated this
practice and tradition, which continues strong to this day. Currently, cockfighting in
Puerto Rico is comprehensively overseen by the "Puerto Rico Gamecocks of the New
Millennium Act", Act No. 98 of July 31, 2007, 15 Laws ofP.R. Ann. §301 et seq.
The Commerce Clause of the Constitution of the United States has the clear, specific,
and sole purpose of regulating the commerce between the States, including the
Territories and the Commonwealth of Puerto Rico. However, it is not a carte blanche
to permit Congress to impose its policies or views on strictly intrastate practices,
dutifully regulated by lawfully elected local authorities, which do not affect in any
substantial way the interstate commerce within the United States. That is precisely
what Section 12616 of the Agriculture Improvement Act of 2018, Pub. L. No. 115-334,
§12616, 132 Stat. 4490, 5015-16 (2018), tries to unconstitutionally accomplish.
As it effectively prohibits all cockfighting activities within the Commonwealth of
Puerto Rico, Section 12616 usurps Puerto Rico's authority to regulate and authorize
a purely intrastate activity within its legitimate boundaries. That is an overbroad
exercise of the Congressional authority established and recognized through the
Commerce Clause.
Furthermore, the imposition of Section 12616 on Puerto Rico's intrastate
practice and tradition of cockfighting goes against the local and internal self-

7

government recognized and agreed between Congress and the people of Puerto Rico,
in a process that occurred from 1950 to 1952, and that is still in force today.
ARGUMENT

I.

SECTION 12616 OF THE AIA OF 2018 SURPASSES THE LIMITS OF

CONGRESSIONAL AUTHORITY THROUGH THE COMMERCE CLAUSE

The federal government established by the Constitution is one of enumerated
powers, which are "few and defined"; on the other hand, those retained by the States
(and in an analogous manner, the Territories, and the Commonwealth of Puerto Rico)
are "numerous and indefinite". United States v. Lopez, 514 U.S. 549, 552 (1995),
quoting James Madison, The Federalist No. 45, pp. 292-293 (C. Rossiter Ed 1961).

Congress does have the constitutional authority "[to] regulate Commerce with
Foreign Nations, and among the several States, and with the Indian Tribes." US.
Const, Art 1, §8, et 3. It also has that authority, but subject to the same limitations

with regards to the Territories and the Commonwealth of Puerto Rico. This Court
affirmed the definition of "commerce" previously stated in Gibbons v. Ogden, 9 Wheat.
1, 189-190 (1824), expressing that commerce is the "commercial intercourse between

nations, and parts of nations, in all its branches, and is regulated by prescribing rules
for carrying on that intercourse." See Lopez, 514 US. at p. 553. Moreover, it went to
cite Gibbons to the effect that "[i]t is not intended to say that these words comprehend
that commerce, which is completely internal, which is carried on between men and
men in a state, or between different parts of the same State, and which does not
extend to other States." Id., quoting Gibbons, at 194-195.

8

government recognized and agreed between Congress and the people of Puerto Rico,
in a process that occurred from 1950 to 1952, and that is still in force today.
ARGUMENT
I.

SECTION 12616 OF THE AIA OF 2018 SURPASSES THE LIMITS OF

CONGRESSIONAL AUTHORITY THROUGH THE COMMERCE CLAUSE
The federal government established by the Constitution is one of enumerated
powers, which are "few and defined"; on the other hand, those retained by the States
(and in an analogous manner, the Territories, and the Commonwealth of Puerto Rico)
are "numerous and indefinite". United States v. Lopez, 514 U.S. 549, 552 (1995),
quoting James Madison, The Federalist, No. 45, pp. 292-293 (C. Rossiter Ed. 1961).

Congress does have the constitutional authority "[to] regulate Commerce with
Foreign Nations, and among the several States, and with the Indian Tribes." U.S.
Const., Art. I, §8, cl. 3. It also has that authority, but subject to the same limitations

with regards to the Territories and the Commonwealth of Puerto Rico. This Court
affirmed the definition of "commerce" previously stated in Gibbons v. Ogden, 9 Wheat.
1, 189-190 (1824), expressing that commerce is the "commercial intercourse between

nations, and parts of nations, in all its branches, and is regulated by prescribing rules
for carrying on that intercourse." See Lopez, 514 U.S. at p. 553. Moreover, it went to
cite Gibbons to the effect that "[i]t is not intended to say that these words comprehend
that commerce, which is completely internal, which is carried on between men and
men in a state, or between different parts of the same State, and which does not
extend to other States." Id., quoting Gibbons, at 194-195.

8

This is fundamental in understanding Congressional overreach with Section
12616. Cockfighting in Puerto Rico is an internal practice and tradition, carried
between persons of the Commonwealth (which is recognized as a State for purposes
of the Commerce Clause and the AWA of 2018) or persons between different parts of
the same State (or Commonwealth), and which does not extend to other States.
In Gonzalez v. Raich, 545 U.S. 1 (2005), this Court set forth the general
regulatory categories by which Congress has the power to engage under the
Commerce Clause. These are the following: (1) Congress can regulate the channels
of interstate commerce; (2) Congress can regulate and protect the instrumentalities
of interstate commerce and persons or things in interstate commerce; and (3)
Congress has the power to regulate activities that substantially affect interstate
commerce. Id., at 16.
This Court, citing its opinion in Wickard v. Filburn, 317 U.S. 111, 125 (1942),
stated that, even if a person's activity is purely local and may not be regarded as
commerce, it may still be regulated by Congress if it exerts a substantial effect on
interstate commerce. Gonzalez, 545 U.S. at 17. Moreover, this Court asserted that
Congress could regulate intrastate activity that is not fundamentally for commerce,
if it concludes that failure to regulate that class of activity would undercut the
regulation of the interstate market in that commodity. Id. The Court concluded that
this type of regulation falls within Congress' power under the Commerce Clause only
if the production of the commodity meant for home consumption has a substantial
effect on supply and demand in the national market for that commodity. Id., at 19.

9

This is fundamental in understanding Congressional overreach with Section
12616. Cockfiv,htinp, in Puerto Rico is an internal practice and tradition, carried
between persons of the Commonwealth (which is recognized as a State for purposes
of the Commerce Clause and the AWA of 2018) or persons between different parts of
the same State (or Commonwealth), and which does not extend to other States.
In Gonzalez v. Raich, 545 U.S. 1 (2005), this Court set forth the general
regulatory categories by which Congress has the power to engage under the
Commerce Clause. These are the following: (1) Congress can regulate the channels
of interstate commerce; (2) Congress can regulate and protect the instrumentalities
of interstate commerce and persons or things in interstate commerce; and (3)
Congress has the power to regulate activities that substantially affect interstate
commerce. Id., at 16.
This Court, citing its opinion in Wickard v. Filburn, 317 U.S. 111, 125 (1942),
stated that, even if a person's activity is purely local and may not be regarded as
commerce, it may still be regulated by Congress if it exerts a substantial effect on
interstate commerce. Gonzalez, 545 U.S. at 17. Moreover, this Court asserted that
Congress could regulate intrastate activity that is not fundamentally for commerce,
if it concludes that failure to regulate that class of activity would undercut the
regulation of the interstate market in that commodity. Id. The Court concluded that
this type of regulation falls within Congress' power under the Commerce Clause only
if the production of the commodity meant for home consumption has a substantial
effect on supply and demand in the national market for that commodity. Id., at 19.

9

To put it succinctly, none of these situations occur, nor are these criteria
applicable concerning the practice and tradition of cockfighting within the
Commonwealth of Puerto Rico. It is strictly an intrastate activity, between persons
and in places located within Puerto Rico and with no substantial (if any) effect on the
supply and demand of the interstate or national market of any commodity. As of
today, no other State permits the lawful exercise of this practice. Thus, there is no
burden on interstate commerce. •
Congress enacted an amendment in 1976 to the Animal Welfare Act (AWA)
that outlawed sponsoring or exhibiting an animal in any "animal fighting venture" in
those instances where the animal had been "moved in interstate or foreign
commerce." Animal Welfare Act Amendments of 1976, Pub. L. No. 94-279, §17, 90
Stat. 417, 421-22 (1976) (codified as 7 U.S.C. §2156(a)).
Within that same Act, "interstate commerce" was defined as "movement
between any place in a State to any place in another State," and Puerto Rico was
included in the statutory definition of "State[s]." Id. (codified as 7 U.S.C. §2156(d)).
Finally, the AWA of 1976 enacted a ban on animal fights "involving live birds" only if
"the fight is to take place in a State where it would be in violation of the laws thereof."
Id. (codified as 7 U.S.C. §2156(d)). With that Congressional recognition and deference
to State and Commonwealth law, Puerto Rico continued to allow and regulate
cockfighting through its local statute.
Even in later legislation, Congress continued to acknowledge the legality of
State (including Puerto Rico) regulated cockfighting. Therein, cockfighting was illegal

10

To put it succinctly, none of these situations occur, nor are these criteria
applicable concerning the practice and tradition of cockfighting within the
Commonwealth of Puerto Rico. It is strictly an intrastate activity, between persons
and in places located within Puerto Rico and with no substantial (if any) effect on the
supply and demand of the interstate or national market of any commodity. As of
today, no other State permits the lawful exercise of this practice. Thus, there is no
burden on interstate commerce.
Congress enacted an amendment in 1976 to the Animal Welfare Act (A WA)
that outlawed sponsoring or exhibiting an animal in any "animal fighting venture" in
those instances where the animal had been "moved in interstate or foreign
commerce." Animal Welfare Act Amendments of 1976, Pub. L. No. 94-279, §17, 90
Stat. 417, 421-22 (1976) (codified as 7 U S. C. §2156(a)).
Within that same Act, "interstate commerce" was defined as "movement
between any place in a State to any place in another State," and Puerto Rico was
included in the statutory definition of "State[s]." Id. (codified as 7 U.S.C. §2156(d)).
Finally, the AWA of 1976 enacted a ban on animal fights "involving live birds" only if
"the fight is to take place in a State where it would be in violation of the laws thereof."
Id. (codified as 7 U.S.C. §2156(d)). With that Congressional recognition and deference
to State and Commonwealth law, Puerto Rico continued to allow and regulate
cockfighting through its local statute.
Even in later legislation, Congress continued to acknowledge the legality of
State (including Puerto Rico) regulated cockfighting. Therein, cockfighting was illegal

10

under federal law only "if the person knew that any bird in the fighting venture was
knowingly bought, sold, delivered, transported, or received in interstate or foreign
commerce for the purpose of participation in the fighting venture." 7 U.S.C.
§2156(a)(2)(3); see Pub. L. 107-171, §10302, 116 Stat 134 (2002). Thus, Puerto Rico
continued to authorize cockfighting in accordance with its local laws and regulations.
In 2018, through the enactment of Section 12616 of the Agriculture Improvement Act
of 2018, Congress outright outlawed cockfighting in every "State," regardless of
whether the person, the bird, or anything else travelled across state lines, thus
eliminating the AWA's longstanding federal exemption for cockfighting when
permitted under State law. Pub. L. No. 115-334, §12616, 132 Stat 4490, 5015-16
(2018).
In adopting Section 12616, Congress claimed the Commerce Clause, and did
not even mention the Territories Clause, as the source of its authority for said
enactment. Nothing in the statute or the Congressional record of the consideration
of this legislation serves to establish that there was a rational basis to believe that
the practice and tradition of cockfighting in Puerto Rico has a substantial (or, for that
matter, any) effect in interstate commerce. Therefore, as it fails to follow this Court's
interpretation of said constitutional clause, Section 12616 is an invalid and overbroad
exercise of the powers vested on Congress by the Commerce Clause, whose only
purpose is banning a purely intrastate practice adequately regulated by local Puerto
Rico law. As such it cannot constitutionally stand.

11

under federal law only "if the person knew that any bird in the fighting venture was
knowingly bought, sold, delivered, transported, or received in interstate or foreign
commerce for the purpose of participation in the fighting venture." 7 U. S. C.
§2156(a)(2)(3); see Pub. L. 107-171. 00302, 116 Stat. 134 (2002). Thus, Puerto Rico
continued to authorize cockfighting in accordance with its local laws and regulations.
In 2018, through the enactment of Section 12616 of the Agriculture Improvement Act
of 2018, Congress outright outlawed cockfighting in every "State," regardless of
whether the person, the bird. or anything else travelled across state lines, thus
eliminating the AWA - s longstanding federal exemption for cockfighting when
permitted under State law. Pub. L. No. 115-334, §12616, 132 Stat. 4490, 5015-16
(2018).
In adopting Section 12616, Congress claimed the Commerce Clause, and did
not even mention the Territories Clause, as the source of its authority for said
enactment. Nothing in the statute or the Congressional record of the consideration
of this legislation serves to establish that there was a rational basis to believe that
the practice and tradition of cockfighting in Puerto Rico has a substantial (or, for that
matter, any) effect in interstate commerce. Therefore, as it fails to follow this Court's
interpretation of said constitutional clause, Section 12616 is an invalid and overbroad
exercise of the powers vested on Congress by the Commerce Clause, whose only
purpose is banning a purely intrastate practice adequately regulated by local Puerto
Rico law. As such it cannot constitutionally stand.

11

II. PUERTO RICO'S LOCAL LAWS ARE, LIKE STATES' LAWS,
SOVEREIGN OVER MATTERS NOT REGULATED BY THE FEDERAL
CONSTITUTION
Fifty-two years after United States obtained military possession of Puerto Rico
during the Spanish-American War of 1898, Congress enacted Public Law 600. See
Pub. L. No. 81-600, 64 Stat. 319 (1950). That statute, "[fjully recognizing the principle
of government by consent," offered the people of Puerto Rico a prospective
relationship with the federal government that was to be "in the nature of a compact."
It also recognized Puerto Rico the authority to "organize a government pursuant to a
constitution of their own adoption." 48 US. C. § 731 b. Upon popular acceptance of the
offer included in the statute by the qualified voters of Puerto Rico, the legislature
convened a constitutional convention to draft a constitution for Puerto Rico. 48 U.S. C.
§ 731e.
The people of Puerto Rico, through various, exercises of electoral suffrage
accepted that offer for a compact and adopted their own Constitution. Congress
ratified that compact by approving the Puerto Rico Constitution with some
conditions. See Pub. L. No. 82-447, 66 Stat. 327 (1952), which were accepted by Puerto
Rico. On July 25, 1952, the Governor formally proclaimed the establishment of the
Commonwealth of Puerto Rico. See Proclamation: Establishing the Commonwealth
of Puerto Rico, P.R. Laws Ann. Hist (Hist. L.P.R.A.) § 10.
Before the Congressional enactment and popular ratification of the compact
relationship and the proclamation of the Puerto Rico Constitution, this Court seemed

12

II. PUERTO RICO'S LOCAL LAWS ARE, LIKE STATES' LAWS,
SOVEREIGN OVER MATTERS NOT REGULATED BY THE FEDERAL
CONSTITUTION
Fifty-two years after United States obtained military possession of Puerto Rico
during the Spanish-American War of 1898, Congress enacted Public Law 600. See
Pub. L. No. 81-600, 64 Stat. 319 (1950). That statute, "[gully recognizing the principle
of government by consent," offered the people of Puerto Rico a prospective
relationship with the federal government that was to be "in the nature of a compact."
It also recognized Puerto Rico the authority to "organize a government pursuant to a
constitution of their own adoption." 48 U.S.C. § 731 b. Upon popular acceptance of the
offer included in the statute by the qualified voters of Puerto Rico, the legislature
convened a constitutional convention to draft a constitution for Puerto Rico. 48 U.S. C.
§ 731c.
The people of Puerto Rico, through various exercises of electoral suffrage
accepted that offer for a compact and adopted their own Constitution. Congress
ratified that compact by approving the Puerto Rico Constitution with some
conditions. See Pub. L. No. 82-447, 66 Stat. 327 (1952), which were accepted by Puerto
Rico. On July 25, 1952, the Governor formally proclaimed the establishment of the
Commonwealth of Puerto Rico. See Proclamation: Establishing the Commonwealth
of Puerto Rico, P.R. Laws Ann. Hist. (Hist. L.P.R.A.) § 10.
Before the Congressional enactment and popular ratification of the compact
relationship and the proclamation of the Puerto Rico Constitution, this Court seemed

12

to make a distinction between local laws adopted by the States and those adopted by
the Territories. "In our dual system of government, the position of the state as
sovereign over matters not ruled by the Constitution requires a deference to state
legislative action beyond that required for the laws of a territory." Stainback v. Mo
Hock Ke Lok Po, 336 U.S. 368 (1949). The First Circuit Court of Appeals had likewise
ruled in 1919 as to Puerto Rico. Benedicto v. West India Si Panama Tel. Co., 256 F.
417, 419 (1st Cir. 1919).
However, this issue became moot regarding the laws enacted by the
Commonwealth of Puerto Rico after 1952. In 1982, this Court explicitly concluded,
"Puerto Rico, like a state, is an autonomous political entity, 'sovereign over matters
not ruled by the [federal] Constitution."' Rodriguez v. Popular Democratic Party, 457
U.S. 1, 8 (1982).
Not that long ago, this Supreme Court also referred to the process of the adoption of
the local constitution as "Puerto Rico's transformative constitutional moment."
Puerto Rico v. Sanchez Valle, 136 S.Ct. 1863, 1875 (2016). "Those constitutional
developments were of great significance—and, indeed, made Puerto Rico 'sovereign'
in one commonly understood sense of that term." Id.
In June 2016, Congress enacted Pub. L. No. 114-187, the Puerto Rico Oversight,
Management, and Economic Stability Act (PROMESA), 48 U.S.C. § 2101 et seq.,
structuring a process to manage and correct Puerto Rico's "fiscal emergency" and to
help mitigate the Island's "severe economic decline." See 48 U.S.C. § 2194(m)(1).
When adopting that law, Congress explicitly identified the Territory Clause, U.S.

13

to make a distinction between local laws adopted by the States and those adopted by
the Territories. "In our dual system of government, the position of the state as
sovereign over matters not ruled by the Constitution requires a deference to state
legislative action beyond that required for the laws of a territory." Stainback v. Mo
Hock Ke Lok Po, 336 U.S. 368 (1949). The First Circuit Court of Appeals had likewise
ruled in 1919 as to Puerto Rico. Benedicto v. West India & Panama Tel. Co., 256 F.
417, 419 (1st Cir. 1919).
However, this issue became moot regarding the laws enacted by the
Commonwealth of Puerto Rico after 1952. In 1982, this Court explicitly concluded,
"Puerto Rico, like a state, is an autonomous political entity, 'sovereign over matters
not ruled by the [federal] Constitution.' Rodriguez v. Popular Democratic Party, 457
U.S. 1, 8 (1982).
Not that long ago, this Supreme Court also referred to the process of the adoption of
the local constitution as -Puerto Rico's transformative constitutional moment."
Puerto Rico v. Sanchez Valle, 136 S.Ct. 1863, 1875 (2016). -Those constitutional
developments were of great significance—and, indeed, made Puerto Rico 'sovereign'
in one commonly understood sense of that term." Id.
In June 2016, Congress enacted Pub. L. No. 114-187, the Puerto Rico Oversight,
Management, and Economic Stability Act (PROMESA), 48 U.S.C. § 2101 et seq.,
structuring a process to manage and correct Puerto Rico's -fiscal emergency" and to
help mitigate the Island's "severe economic decline." See 48 U.S.C. § 2194(m)(1).
When adopting that law, Congress explicitly identified the Territory Clause, U.S.

13

Const. art. IV, § 3, cl. 2, as the source of its authority for enactment. See 48 U.S.C.
2121(b) (2). This constitutional justification is significantly to the used for the

Congressional enactment of Section 12616 of the AIA of 2018, which clearly states
the Commerce Clause of the Constitution as the source of Congressional authority to
enact said legislation.
While interpreting the scope of PROMESA, Justice Sotomayor wrote, "Puerto
Rico's compact with the Federal Government and its republican form of government
may not alter its status as a Territory. But territorial status should not be wielded as
a talismanic opt out of prior congressional commitments or constitutional
constraints." Financial Oversight and Management Bd. For Puerto Rico v. Aurelius
Investment, LLC; Sotomayor, J, concurring, 140 S. Ct. 1649.

In her concurrence with the opinion of this Court, Justice Sotomayor went to
say the following, "With the passage of Public Law 600 and the adoption and
recognition of the Puerto Rico Constitution, The United States and Puerto Rico . . .
forged a unique political relationship, built on the island's evolution into a
constitutional democracy exercising local self-rule.' Id., (slip op., at 2); cf CaleroToledo, 416 U S., at 672 (noting with approval the view that, after Public Law 600,
Puerto Rico became 'a political entity created by the act and with the consent of the
people of Puerto Rico and joined in union with the United States of America under the
terms of the compact' (quoting Mora v. Mejias, 206 F. 2d 377, 387 (CAI 1953))). Of

critical import here, the Federal Government 'relinquished its control over [Puerto
Rico's] local affairs [,] grant[ing] Puerto Rico a measure of autonomy comparable to

14

Const. art. IV, § 3, cl. 2, as the source of its authority for enactment. See 48 U.S.C. §
2121(b) (2). This constitutional justification is significantly to the used for the
Congressional enactment of Section 12616 of the AIA of 2018, which clearly states
the Commerce Clause of the Constitution as the source of Congressional authority to
enact said legislation.
While interpreting the scope of PROMESA, Justice Sotomayor wrote, "Puerto
Rico's compact with the Federal Government and its republican form of government
may not alter its status as a Territory. But territorial status should not be wielded as
a talismanic opt out of prior congressional commitments or constitutional
constraints.- Financial Oversight and Management Bd. For Puerto Rico v. Aurelius
Investment, LLC; Sotomayor, J., concurring, 140 S. Ct. 1649.
In her concurrence with the opinion of this Court, Justice Sotomayor went to
say the following, "With the passage of Public Law 600 and the adoption and
recognition of the Puerto Rico Constitution, 'the United States and Puerto Rico . .
forged a unique political relationship, built on the island's evolution into a
constitutional democracy exercising local self-rule.' Id., (slip op., at 2); 4-1 CaleroToledo, 416 U S., at 672 (noting with approval the view that, after Public Law 600,
Puerto Rico became 'a political entity created by the act and with the consent of the
people of Puerto Rico and joined in union with the United States of America under the
terms of the compact' (quoting Mora v. Mejias, 206 F. 2d 377, 387 (('Al 1953))). Of
critical import here, the Federal Government 'relinquished its control over [Puerto
Rico's] local affairs [,] grant[ing] Puerto Rico a measure of autonomy comparable to

14

that possessed by the States.' Examining Bd. of Engineers, Architects and Surveyors
v. Flores de Otero, 426 U. S. 572, 597 (1976). Indeed, the very 'purpose of Congress

in the 1950 and 1952 legislation was to accord Puerto Rico the degree of autonomy
and independence normally associated with States of the Union.' Id., at 594; see also
S. Rep. No. 1779, 81st Cong., 2d Sess., 2 (1950) (Public Law 600 was 'designed to
complete the full measure of local self-government in' Puerto Rico); H. R. Rep. No.
2275, 81st Cong., 2d Sess., 6 (1950) (Public Law 600 was a 'reaffirmation by the
Congress of the self-government principle')."

Thus, it must be clear that the Puerto Rico Constitution, and the branches of
government it creates and structures, all emanate from the popular will, or
sovereignty, of the people of Puerto Rico. This Court has recognized the process that
led to the proclamation of the Constitution of the Commonwealth as a transformative
exercise, by which Puerto Rico established its own government and structured it
capacity to enact its own laws in a manner similar to the States. In short, as that
Constitution states, "...the will of the people (of Puerto Rico) is the source of public
power." P.R. Const. pmbl.
In the exercise of that constitutional authority over intrastate, local, and
internal affairs, the Legislative Assembly of Puerto Rico, of which the Puerto Rico
Senate is part of, has strictly regulated cockfighting in Puerto Rico. See P.R. Laws
Ann. tit. 15, §§301 et seq. The Legislative Assembly has enacted a very comprehensive

statute to make sure that the local executive branch is "vested with all powers and
faculties necessary to promote, direct, regulate, and control any and all activities

15

that possessed by the States.' Examining Bd. of Engineers, Architects and Surveyors
v. Flores de Otero, 426 U. S. 572, 597 (1976). Indeed, the very 'purpose of Congress
in the 1950 and 1952 legislation was to accord Puerto Rico the degree of autonomy
and independence normally associated with States of the Union.' Id., at 594; see also
S. Rep. No. 1779, 81st Cong., 2d Sess., 2 (1950) (Public Law 600 was 'designed to
complete the full measure of local self-government in' Puerto Rico); H. R. Rep. No.
2275, 81st Cong., 2d Sess., 6 (1950) (Public Law 600 was a 'reaffirmation by the
Congress of the self-government principle)."
Thus, it must be clear that the Puerto Rico Constitution, and the branches of
government it creates and structures, all emanate from the popular will, or
sovereignty, of the people of Puerto Rico. This Court has recognized the process that
led to the proclamation of the Constitution of the Commonwealth as a transformative
exercise, by which Puerto Rico established its own government and structured it
capacity to enact its own laws in a manner similar to the States. In short, as that
Constitution states, "...the will of the people (of Puerto Rico) is the source of public
power." P.R. Const. pmbl.
In the exercise of that constitutional authority over intrastate, local, and
internal affairs, the Legislative Assembly of Puerto Rico, of which the Puerto Rico
Senate is part of, has strictly regulated cockfighting in Puerto Rico. See P.R. Laws
Ann. tit. 15, 0301 et seq. The Legislative Assembly has enacted a very comprehensive
statute to make sure that the local executive branch is "vested with all powers and
faculties necessary to promote, direct, regulate, and control any and all activities

15

related to the sport of cockfighting." Among others, these regulations include "the
construction of cockpits, the fixing of seasons for holding the sport, classification, and
issuance of licenses for cockpits, the regulations of cockfights, [and] the holding of
tournaments, jousts, classics, fairs, [and] exhibitions." See P.R. Laws Ann. tit. 15,
§301b.

Puerto Rico's internal legislative authority is analogous to that of a State of
the Union. This Court has concluded that already. Even PROMESA recognizes that
authority. It states in its Section 7 that, except as otherwise provided, nothing in this
chapter shall be construed as impairing or in any manner relieving a territorial
government, or any territorial instrumentality thereof, from compliance with
territorial laws and requirements. See 48 USCS § 2106. Thus, Congress did not enact
PROMESA to exclude or repeal Puerto Rico law, but to acknowledge and work
through it. In addition to that, the intrastate law, practice, and tradition of
cockfighting in Puerto Rico does not raise any issue or burden that, for constitutional
purposes, affects the commerce between the States.
In as much, as the intrastate and local law regulating the practice and
tradition of cockfighting in Puerto Rico was enacted in compliance with the authority
of the Legislative Assembly of Puerto Rico, as recognized by the Constitution of the
Commonwealth, and in accordance with the compact agreed between Congress and
Puerto Rico, and that said practice has no substantial effect upon the interstate
commerce, there is no valid constitutional reason for the federal government to try to

16

related to the sport of cockfighting." Among others, these regulations include "the
construction of cockpits, the fixing of seasons for holding the sport, classification, and
issuance of licenses for cockpits, the regulations of cockfights, [and] the holding of
tournaments, jousts, classics, fairs, [and] exhibitions.- See P.R. Laws Ann. tit. 15,
§301b.
Puerto Rico's internal legislative authority is analogous to that of a State of
the Union. This Court has concluded that already. Even PROMESA recognizes that
authority. It states in its Section 7 that, except as otherwise provided, nothing in this
chapter shall be construed as impairing or in any manner relieving a territorial
government, or any territorial instrumentality thereof, from compliance with
territorial laws and requirements. See 48 USCS § 2106. Thus, Congress did not enact
PROMESA to exclude or repeal Puerto Rico law, but to acknowledge and work
through it. In addition to that, the intrastate law, practice, and tradition of
cockfighting in Puerto Rico does not raise any issue or burden that, for constitutional
purposes, affects the commerce between the States.
In as much, as the intrastate and local law regulating the practice and
tradition of cockfighting in Puerto Rico was enacted in compliance with the authority
of the Legislative Assembly of Puerto Rico, as recognized by the Constitution of the
Commonwealth, and in accordance with the compact agreed between Congress and
Puerto Rico, and that said practice has no substantial effect upon the interstate
commerce, there is no valid constitutional reason for the federal government to try to

16

enforce Section 12616 of the Agriculture Improvement Act of 2018 on Puerto Rico.
Therefore, this Court should declare it unconstitutional.
CONCLUSION
This Court should grant the petition and reverse the decision below.
RESPECTFULLY submitted,

EDWIN QUINONES
COUNSEL OF RECORD
QUINONES, ARBONA & CANDELARIO
Chubb Plaza, Suite 701-A
San Juan, P.R. 00922
(787) 620-6776
equinones@qaclaw.com

ANIBAL ACEVEDO VILA
COUNSEL FOR AMICUS CURIE
LAW OFFICE OF ACEVEDO-VILA
894 Mu&oz RIVERA AVE, SUITE 202
San Juan, P.R. 00927
(787) 200-0676
acevedovilal@gmail. corn

17

enforce Section 12616 of the Agriculture Improvement Act of 2018 on Puerto Rico.
Therefore, this Court should declare it unconstitutional.
CONCLUSION
This Court should grant the petition and reverse the decision below.
RESPECTFULLY submitted,

EDWIN QUIRONES
COUNSEL OF RECORD
QUNONES, ARBONA & CANDELARIO
Chubb Plaza, Suite 701-A
San Juan, P.R. 00922
(787) 620-6776
equinones@qaclaw.com

ANIBAL ACEVEDO VILA
COUNSEL FOR AMICUS CURIE
LAW OFFICE OF ACEVEDO-VILA
894 Murioz RIVERA AVE, SUITE 202
San Juan, P.R. 00927
(787) 200-0676
acevedovilal@gmail.com

17

